<html>
<title> - THE FUTURE OF TURKISH DEMOCRACY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    THE FUTURE OF TURKISH DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2014

                               __________

                           Serial No. 113-184

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
88-731                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin--
    added 5/29/14 noon 
CURT CLAWSON, Florida--
    added 7/9/14 noon 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Nate Schenkkan, program officer, Eurasia Programs, Freedom 
  House..........................................................     7
Elizabeth H. Prodromou, Ph.D., visiting associate professor of 
  conflict resolution, The Fletcher School of Law and Diplomacy, 
  Tufts University...............................................    14
Soner Cagaptay, Ph.D., Beyer Family Fellow and director, Turkish 
  Research Program, The Washington Institute for Near East Policy    20
Kilic Kanat, Ph.D., non-resident scholar, Foundation for 
  Political, Economic, and Social Research (SETA)................    25
Mr. Hakan Tasci, executive director, Tuskon-US...................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Nate Schenkkan: Prepared statement...........................     9
Elizabeth H. Prodromou, Ph.D.: Prepared statement................    17
Soner Cagaptay, Ph.D.: Prepared statement........................    22
Kilic Kanat, Ph.D.: Prepared statement...........................    27
Mr. Hakan Tasci: Prepared statement..............................    38

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable George Holding, a Representative in Congress from 
  the State of North Carolina: Prepared statement................    62
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    63


                    THE FUTURE OF TURKISH DEMOCRACY

                              ----------                              


                         TUESDAY, JULY 15, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. The hearing will come to order, and the 
title of this hearing today is The Future of Turkish Democracy. 
Without objection, all members will have 5 legislative days to 
submit additional questions or extraneous material for the 
record. So ordered.
    Just over 1 year ago, I gaveled this subcommittee for a 
hearing that focused on the protests that were then going on in 
Turkey. At the close of the hearing I stated my hope that 
Turkey would use the episode of turmoil that they were going 
through as a vehicle to move closer rather than further away 
from democratic government.
    Today's hearing seeks to address if my hope for a 
democratic progress back then was well placed. Turkey is a 
strategically located American partner and a valued NATO ally. 
That is not hallow rhetoric, the fact is being demonstrated 
right now that Turkey is so important to us. And with the 
creation of the Southern Gas Corridor, Turkey is poised to 
become a key energy transit country for the European Union.
    Turkey has also taken in a huge number of civilian refugees 
from Syria, most likely over 1 million men, women and children. 
Those of us who remember history find it heartening to see 
Turkey, which had been in a killing match with different parts 
of the Kurdish community, is now a very positive force in the 
Iraqi Kurdish Government and reaching out to its own Kurdish 
population to find areas of cooperation. Yet, the relationship 
between the Turkish people and the American people is built not 
on geostrategic calculations but on shared democratic values.
    I want to make it very clear that our discussion here 
today, our comments and even our criticisms of the Turkish 
Government both former and current are not aimed at the 
citizens of Turkey, or are being done with great respect to the 
Turkish people themselves and yes, the Turkish Government. The 
people of the United States and the people of Turkey are 
friends and nothing we say today, even though there will be 
some criticism registered, will alter that fact.
    During the Prime Minister Erdogan's more than 10 years in 
office he has led Turkey to tremendous economic growth, 
averaging more than 5 percent a year. Unfortunately political 
freedom in Turkey cannot be measured by the country's level of 
economic prosperity. The prime minister has been at times 
intolerant of legitimate political opposition.
    The AK Party has increasingly gone down a dangerous path. 
And when faced with tough opposition, instead of negotiation 
and compromise the ruling party has often been intransigent and 
vengeful. Certain social media Web sites have been blocked, 
journalists jailed or fired, and the justice system 
politicized.
    Let me note that in May of this year, Freedom House 
downgraded Turkey's freedom, or oppressed freedom ranking to 
not free. Those of us who count ourselves as friends of 
Turkey--and let me restate that I consider myself a friend of 
Turkey--cannot help but be alarmed by such reports. No matter 
what political party or leader comes to power in Turkey, 
liberal democracy is not possible if key civil society 
institutions such as freedom of the press do not function.
    The United States wants Turkey to be a stable ally on the 
edge of the Middle East. And as the Middle East goes into such 
turmoil it is even more important that we have a stable Turkey, 
but we don't want stability at the price of democracy. Our 
shared national interests stem from our shared democratic 
values. That is and must continue to be the bedrock of the 
relationship between Turkey and the United States.
    I would like to hear from our expert witnesses today, their 
views on the state of democracy on Turkey and how the 
leadership of this prime minister has affected the freedom of 
expression, the media, the minority religious groups and the 
economy. And lastly, how can this Congress help to ensure that 
Turkey is on the pathway of expanding democratic rights for all 
its citizens and yet remains a valued strategic partner of the 
United States?
    I would like to thank all of our members here, and 
recognizing that we are blessed by having the chairman of the 
full committee showing a specific interest in this hearing and 
he is with us today. And I would ask if Chairman Royce of the 
full Committee on Foreign Affairs has an opening statement that 
he would like to make.
    Mr. Royce. Thank you, Mr. Chairman. I would like to 
associate myself with your remarks, Mr. Rohrabacher, and I 
would like to also thank you for holding this important 
hearing.
    An overwhelmingly Muslim country, Turkey is a NATO ally, as 
Mr. Rohrabacher indicated, and it has long been a secular 
democracy. But I too am concerned as is Mr. Rohrabacher about 
recent events that indicate a shift by Prime Minister Erdogan 
away from democratic ideals. And my concern, my concern would 
be as that shift occurs and it reverts to more authoritarian 
rule, my concern is with some of the comments that I have seen 
made. One reportedly stated that ``Democracy is like a bus 
ride. Once I get to my stop, I am getting off.''
    With that kind of commentary and also with the use of 
strong arm tactics against opponents, this is what gives rise 
to concern. This approach was clearly demonstrated in the 
response to the 2013 protests in which--and I understand the 
viewpoint there, but frankly it was treated as though the head 
of state regarded that as illegitimate challenge. And it 
resorted to violence, it resorted to the dispersing of the 
crowds by violence and a key target was the media. You had 153 
journalists injured at that time and 39 detained by the police.
    Reporters Without Borders noted in their 2014 report on 
``Press Freedom in the World'' that 60 journalists, around 60 
journalists were in detention in Turkey in 2013, including at 
least 28 held in connection with their work, making the country 
one of the world's biggest prisons for media personnel.
    In reaction to comments last year on Twitter regarding a 
corruption investigation involving his AKP party, Erdogan had 
an immediate response and it was to vilify Twitter stating, 
``There is now a menace which is called Twitter. To me, social 
media is the worst menace to society.'' A few days later he 
moved to block all access to the site and followed shortly 
thereafter to banning access to YouTube.
    Freedom of religion is also threatened. According to the 
2014 United States Commission on International Religious 
Freedom report, ``Politically, religious freedom abuses are 
linked with the absence of democracy and the presence of abuses 
of other human rights, such as freedom of expression, 
association and assembly.''
    Religious minorities in Turkey suffer under strict controls 
governing their affairs, including their ability to choose 
their own church leaders, to manage and raise funds, own 
property, and even access to their historic sites of worship. 
The continued closure of the Orthodox Church's Halki Seminary 
by the Turkish Government presents a fundamental threat to the 
Ecumenical Patriarchate.
    Despite optimistic claims by Turkish leaders in 2011 that 
the revised Foundations Law would allow all church properties 
to be returned within a year, a majority of properties remain 
confiscated. In many cases the situation has actually gotten 
worse. Instead of returning them to their rightful owners, the 
Turkish Directorate General of Foundations approved the 
conversion of Byzantine Orthodox churches previously 
expropriated by the Turkish Government into mosques, and there 
is even legislation before the Turkish Parliament to likewise 
convert the Hagia Sophia church in Istanbul.
    Many believe these actions constitute to eradicate the 
presence of the Christian heritage in Turkey since it first 
arrived there 2,000 years ago. That is why I am pleased that a 
few weeks ago the committee passed my legislation, H.R. 4347, 
which will not only call on Turkey to return these properties 
but also enact a report requirement to hold Turkish leaders 
accountable for progress on this issue.
    By committing ourselves to acting on such legislative 
measures and by holding hearings on the situation in Turkey, it 
is my hope that Congress will send a clear message that the 
Turkish Government must renew its commitment to democracy and 
the basic human rights for all of its people. And this would be 
the foundation for a closer U.S.-Turkey relationship.
    Thank you again, Mr. Chairman.
    Mr. Rohrabacher. Mr. Chairman, we appreciate your 
particular interest in this hearing and joining us today, and 
we appreciate your opening statement. Now have an opening 
statement from the ranking member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. I would like to thank today's 
witnesses for joining us and minority witness, Mr. Cagaptay, 
for your participation in what has turned out to be a very 
diverse panel. Thank you all.
    I would also like to take a moment to recognize the Turkish 
hostages that are still missing over a month after they were 
taken from the Turkish consulate and other locations in Mosul. 
We hope for their safe passage back home to their families.
    Turkey is an important U.S. ally in a very different part 
of the world, and as Ranking Member Engel and I discussed in a 
recent letter to the Economist, their membership in NATO cannot 
be understated. Mr. Chairman, if you will allow me I would like 
to insert that letter into the record.
    Mr. Rohrabacher. So ordered.
    Mr. Keating. Thank you, Mr. Chairman.
    Nevertheless, challenges in the relationship remain. I am 
interested to hear our witnesses today discuss their thoughts 
on what happened to this so-called model partnership, the role 
that domestic politics plays in Turkey's foreign policy 
decisions and how this ultimately affects the U.S.
    Like all democracies, including our own, there are bumps in 
the road. But with upcoming Presidential elections in Turkey, 
it is important to gauge how long these bumps in Turkey will 
persist and what impact they will ultimately have. It seems as 
though in the preceding months and years we witnessed the 
steady intensification of crackdowns on protests. Authorities 
have at times even arrested doctors treating injured 
protesters, and lawyers demanding more accountability and 
transparency within the judiciary.
    We have also witnessed the blocking of important 
communication tools such as Twitter and YouTube. Most recently, 
many observers have raised valid concerns that the electoral 
dominance of Prime Minister Erdogan's AK Party will result, as 
some observers argue, in a Turkey that is now essentially a 
one-party system. They say that opposition parties can no 
longer voice, much less influence, decision making.
    These issues take on special importance to Congress. Not 
because we have any interest in meddling in Turkey's internal 
affairs, but simply because we represent hundreds of U.S. 
citizens of Turkish origin, American companies, as well as 
other groups who continue to be affected by these decisions and 
the overall instability that these policies create.
    The United States and Turkey are also dealing with serious 
issues of mutual concern over terrorism and extremism which is 
bubbling up right at Turkey's border. As we weigh our own 
international budget priorities in Congress, we need to 
understand the role that Turkey's internal dynamics have on our 
own counterterrorism initiatives in the region. It is unclear 
to what extent Turkey's internal disputes have disrupted our 
cooperation in the areas of counterterrorism and mutual 
defense, but I doubt that there has been no impact at all.
    To cite just a few perplexing matters, in just the last few 
years the top brass of the Turkish military, the first line of 
defense against the extremists in the region, were imprisoned 
then released. Weapons interdictions along the Syrian-Turkish 
border continue to occur, and allegedly, recordings pointing to 
large-scale bribes between the prime minister, his family, 
party officials and Iranian businessmen may have larger 
implications for our policy on Iran and sanctions.
    Our job in this subcommittee is to look into these 
incidents, their veracity, the implications that they might 
have for the U.S., and I am happy we are doing so today. That 
being said, the actual resolution of these disputes and any 
attempt to mend longstanding fault lines based on religion, 
ethnicity or ideology can only be completed by the Turks and 
the Turks alone.
    I believe the Turks through civil society engagement and 
diverse economic activities can overcome many of the obstacles 
that the headlines are focusing on today. Great strides have 
been made to open up the Turkish economy, trade and culture to 
others. This is a positive sign as economic security and human 
rights issues are all interlinked, and I believe that one can 
propel the other in this case.
    I know that the administration, Members of Congress, the 
vibrant Turkish diaspora here in the U.S., and the Government 
and the people of Turkey all deeply value U.S.-Turkey 
relationships. Despite concerns about human rights, I am 
encouraged by the many energetic discussions taking place in 
Turkey and their implications for the future of Turkey's 
democracy and I look forward to hearing our witnesses and their 
perspectives on Turkey's future.
    With that Mr. Chairman, I yield my time back.
    Mr. Rohrabacher. Did you have time to yield back?
    Mr. Keating. I did, 2 seconds. Two seconds.
    Mr. Rohrabacher. And it is the intent of the Chair to break 
after we have one more opening statement and then to return 
here at 15 minutes to 3 o'clock to hear the testimony and to 
proceed with the hearing.
    Mr. Sires?
    Mr. Sires. For the sake of time I will just summarize a 
little bit of my concerns. I have concerns of the way the 
government has been behaving. I share the comments that my 
colleague made. I am concerned about the hard lines he seems to 
be taking all the time to the Cyprus issue. I am concerned 
about the amount of troops that Turkey has in Cyprus.
    And, quite frankly, I understand that they are a good 
friend, members of NATO, but at the end of the day I think that 
their behavior at least ought to be the sign in some areas. So 
I thank you for giving me the opportunity to speak.
    Mr. Rohrabacher. Thank you very much. And this hearing is 
now in, not adjourned, it is in recess. There we go.
    [Recess.]
    Mr. Rohrabacher. I do not believe that the ranking member 
will be upset if I proceed with just the introduction of the 
witnesses so when he gets here we will be ready to have the 
testimony. So I call this hearing back into order, and I want 
to apologize about if I mispronounce names. With a name like 
Rohrabacher I have had my name mispronounced forever. But it is 
okay.
    Okay, our first witness today is Nate Schenkkan--okay, got 
it--who is a program officer for Freedom House. He has been 
closely following media freedom in Turkey and coauthored the 
Freedom House's special report on Turkey earlier this year. He 
has previously worked as a journalist in Central Asia and 
earned his masters degree from Columbia University.
    We then have with us Professor Elizabeth Prodromou--okay, 
thank you. She is a visiting associate professor at the 
Fletcher School of Law and Diplomacy at Tufts University. She 
also previously served as vice chairman of the United States 
Commission on International Religious Freedom and earned a 
doctorate in political science from MIT.
    I would also like to welcome back Dr. Soner Cagaptay--got 
it--who is the director of Turkish Research Program at the 
Washington Institute for Near East Policy. He is a widely 
published expert on U.S.-Turkish relations and who has 
regularly testified before Congress. He has earned his 
doctorate from Yale.
    Then we have Mr. Hakan Tasci--got it--and he is executive 
director of Tuskon, the U.S. representative office of a large 
confederation of Turkish businesses which represent thousands 
of companies in Turkey. And before his current job he taught 
economics at the University of North Carolina at Chapel Hill 
and earned his masters degree from Bilkent University in 
Turkey.
    And then we have Dr. Kilic Kanat. He is a resident scholar 
at SETA Foundation here in Washington. He also is assistant 
professor of political science at Pennsylvania State University 
at Erie, and the professor had earned a Ph.D. in political 
science from Syracuse University.
    And I would welcome all of you today and also express my 
gratitude to you for your testimony. And we will wait another 
couple minutes, but in the meantime let me just explain that if 
you could keep your remarks to 5 minutes you can submit remarks 
that long for the record. But if you could put them down to 5 
minutes we could then get to some questions and answers and 
perhaps some dialogue.
    And I am a little bit hesitant about starting the actual 
testimony until one of our minority members are here. So with 
that said, well, I could tell a few jokes if you would like. So 
you know about the story about the woman who set up, an elderly 
woman who set up a pretzel stand outside of a large business. 
Well, it could be in Turkey for all that matter. And it was a 
big modern business building, and every day a businessman would 
stop by and--oh, you are never going to get to hear the end of 
this joke.
    With your permission I will finish the joke.
    Mr. Keating. I have heard it before.
    Mr. Rohrabacher. He has. So every day he stops by and he 
puts 50 cents into her plate and then he runs into the 
building. But he never takes a pretzel. This goes on for over a 
year. And finally, as he puts 50 cents into the plate she grabs 
him by the arm, and he looks into her face and he says, you 
probably want to know why for a full year I have been putting 
50 cents into your plate but I have never taken a pretzel. And 
she says, well, no, I just want to tell you pretzels are up to 
75 cents.
    All right. They get it. Gratitude. I have already 
introduced the witnesses, and with your permission we will 
proceed with the testimony.

   STATEMENT OF MR. NATE SCHENKKAN, PROGRAM OFFICER, EURASIA 
                    PROGRAMS, FREEDOM HOUSE

    Mr. Schenkkan. Thank you, Mr. Chairman. Thank you to the 
subcommittee for the invitation to speak today. My opening 
remarks touch on the most recent developments in 2014 affecting 
fundamental freedoms in Turkey. This is a summary of my full 
testimony.
    I think the statements of Chairman Rohrabacher and Chairman 
Royce on the Gezi protests captured well the sense that the 
government missed an opportunity to acknowledge the large 
minority in Turkey that was frustrated with its lack of voice 
in an increasingly majoritarian system. Since the time when the 
government halted the Gezi protests with police force in July 
2013, the government has grown even more intolerant and 
dismissive of criticism. This tendency intensified following 
the corruption investigation announced on December 17th, 2013, 
which implicated leading members of the government. The 
December 17th investigation sparked a furious effort on the 
part of the government to suppress the investigation and the 
ensuing leaks.
    In this effort, the government has directly targeted the 
ability of journalists and others to access and disseminate 
information, and I would like to describe some of those key 
negative steps in 2014. First, amendments to the already 
repressive law governing Internet services, Law 5651, which 
make it easier and faster to block Web sites and to determine 
the identities of Internet users.
    Two, the complete blocking of Twitter and YouTube 1 week 
prior to the March 30th local elections. Although the 
Constitutional Court overturned both of these blocks after the 
election, they still violated freedom of expression and the 
right to access information especially during a political 
campaign.
    Three, and the most disturbing development is the new law 
granting special powers to the National Intelligence 
Organization, or MIT. The law entitles the MIT to collect all 
information, documents or data, from any entity in Turkey. It 
makes publishing information about the MIT punishable by 3 to 9 
years in prison. It places the MIT and its employees outside of 
normal structures of legal accountability. This supra-legal 
National Intelligence Organization is a grave threat to Turkish 
democracy.
    There also continue to be serious problems with freedom of 
association and assembly that I will mention quickly. The 
prosecution especially of members of Taksim Solidarity, the 
original organizers of the first Gezi Park protest, on the 
absurd charge of founding a criminal organization.
    Now a few words directly on the subject of the panel of The 
Future of Turkish Democracy. Like most people I expect Prime 
Minister Erdogan will win the Presidential election in August, 
likely in the first round. Then his first priority will be to 
create de facto Presidential rule, and then following the June 
2015 parliamentary elections, a de jure Presidential system 
through constitutional reform.
    A Presidential system is not inherently bad, and Turkey 
needs a new Constitution. But given Mr. Erdogan's ``with us or 
against us'' style of governance, I fear constitutional reform 
will be neither inclusive nor consultative. Mr. Erdogan sees 
himself as leading a revolution against elites and outside 
powers, and a revolution requires constantly creating enemies, 
real or imagined, who must be defeated.
    I fear Mr. Erdogan's presidency will sharpen divisions 
within Turkish society and further weaken institutions in favor 
of personalized rule. This will harm human rights and 
fundamental freedoms, and also the rule of law and economic 
management.
    If there is a slim silver lining from the last 13 months, 
it is that the U.S. Government no longer casts Turkey as a 
model democracy. For many years of AK Party rule, U.S. policy 
toward Turkey ignored and overlooked highly visible problems 
with human rights, democracy and rule of law. This exercise in 
positive thinking did not serve Turkey and it did not serve the 
United States.
    The new frankness about Turkey's internal dynamics offers 
an opportunity for the U.S. to make supporting Turkey's 
democracy a serious part of its policy planning. The European 
Union remains the best mechanism for the U.S. to support the 
development in Turkey of effective institutions with checks and 
balances. Right now Turkey's accession has lost momentum. The 
U.S. has been committed to Turkey's EU membership, but 
primarily through rhetorical support through to what is treated 
as an EU-Turkey process.
    The U.S. should elevate Turkey's accession as an urgent 
strategic priority and create a high level policy dialogue with 
the Turkish Government in consultation with the EU to deploy 
U.S. support where it is needed. A good immediate step toward 
accession would be lifting EU member state blocks on opening 
chapters 23 and 24 of the EU acquis on Judiciary and 
Fundamental Rights and Justice, Freedom and Security. The best 
way for the U.S. to support democracy in Turkey is by 
integrating democracy and human rights into the strategic 
bilateral policy relationship just as security and trade have 
been integrated. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Schenkkan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                  
                              ----------                              

    Mr. Rohrabacher. Thank you very much for your testimony, 
and we will have questions and answers after everyone is 
complete.

STATEMENT OF ELIZABETH H. PRODROMOU, PH.D., VISITING ASSOCIATE 
 PROFESSOR OF CONFLICT RESOLUTION, THE FLETCHER SCHOOL OF LAW 
                AND DIPLOMACY, TUFTS UNIVERSITY

    Ms. Prodromou. Good afternoon and thank you as well. I want 
to express my thanks to the subcommittee and to the full 
committee for this hearing. Having served as a commissioner and 
vice chair on the U.S. Commission on International Religious 
Freedom, I am also, currently, as a member of the Secretary of 
State's working group on Religion and U.S. Foreign Policy, I am 
very heartened by the committee's attention to the matters that 
bring us here this afternoon.
    I am going to begin by offering some general remarks and 
then some very specific data points that focus particularly on 
the issue of religious freedom and the rights of religious 
minorities in Turkey, particularly as these relate to broader 
questions of media freedom and democracy as a whole.
    The starting point, I think, the best starting point is to 
reference the international human rights standards such as the 
Universal Declaration of Human Rights and the International 
Covenant on Civil and Political Rights. Both of these 
unequivocally identify the right to religious freedom, freedom 
of thought, conscience and religion as a universal human right 
and that includes freedom to change one's religion or belief, 
freedom either alone or within community in public or in 
private, to manifest a belief as well as teaching, practice, 
worship and observance.
    So measured within this context, it is fair to say, I 
think, that there have been some evidences of minor progress in 
Turkey during the period since the AKP was elected in 2002. 
When it comes to the rights of religious minorities in the 
country, I would say that that the progress largely lies within 
the context of a discursive expansion in the form of a far more 
public discussion of previous taboo issues concerning 
violations against the rights of religious minorities.
    And then the second is what I would call minor 
improvements, cosmetic and episodic in nature that have been 
designed to loosen restrictions on religious freedom for 
Turkey's religious minority communities largely regarding the 
rights of the country's tiny Christian community and very small 
Jewish community. And within this second category we could 
include the 2011 property rights law on foundations.
    But even here the progress has been very, very small. Only 
23 percent of applications for return of properties have been 
accepted and that means that 77 percent of applications for the 
return of properties to individuals and groups belonging to 
religious minorities have been arbitrarily rejected by the 
government. So measured against these small improvements, I 
think the real sobering picture is as follows, and that is that 
there has been a real failure to make any kind of substantive 
legal and institutional changes that would ensure that all of 
Turkey's citizens regardless of what religious faith community 
they belong to are seen as equal before the law.
    And there are a few emblematic examples, I think, that 
underscore this point and which speak to again the corrosive 
effects of religious freedom violations on Turkey's democracy. 
Some of these were mentioned in brief in the opening remarks, 
but I think they are worth emphasizing. A quite aggressive 
Islamization strategy that has been based on the conversion of 
Christian churches into mosques over the last 2\1/2\ years 
alone, the conversion of the church of St. Sophia in Trabzon, 
and then as St. Sophia, at Isnik, into functioning mosques, and 
then the declared commitment of the AKP government with no 
response to the contrary by opposition party members to convert 
the church of Aghia Sophia in Istanbul into a functioning 
mosque. And that is actually a UNESCO World Heritage site.
    Second example. The continuing interference in the internal 
governance structures of Christian and Jewish minority 
communities in Turkey by the Turkish state imposing arbitrary 
citizenship requirements for election to hierarchical 
positions. And third example, prohibitions continue on 
religious education and especially on the training of clergy 
that Greek Orthodox Theological School of Halki remains closed 
after more than 40 years, and the prime minister as well as 
senior members of his government declared publicly that there 
is absolutely no legal impediment to reopening the Halki 
school. That it is a political issue, pure and simple.
    Two other examples, and I will move to close. One 
particularly concerning example, the Turkish state's continuing 
use of a racial coding system for its religious minority 
communities. They are called the ancestry codes, and 
accordingly Greeks, Armenians, Syriacs and others presumably in 
that category, Roman Catholics and Protestants, are coded 1 
through 5 by the Ministry of Education, the Ministry of 
Information and the Population Directorate, and that racial 
coding system has been designed to exclude those groups from 
government as well as to facilitate massive property 
expropriations on citizen revocations.
    And then finally, the comprehensive religious cleansing 
policy that has been pursued systematically for 40 years by the 
Turkish Armed Forces and the Turkish Cypriot authorities in 
Turkish-occupied Cyprus. It will be 40 years on this coming 
20th of July that the Turkish Armed Forces set up occupation on 
the north of the island. And when I say religious cleansing, I 
mean the cleansing of any kind of presence of Christian 
communities in the occupied north. That is living human beings 
as well as religious patrimony, everything from churches, 
monasteries, cemeteries. They have been desecrated. There has 
been a systematic looting and black market sale of moveable 
artifacts from those properties, and there are continuing 
limitations on the ability of those tiny, less than 400 members 
of the Christian community there to worship.
    What does all this mean? All this is very sobering, I 
think, for the direction of Turkish democracy. And as my 
copanelist mentioned, I think there is every reason to be 
concerned about the immediate future. The move to a 
Presidential system is likely to bode very poorly for religious 
freedom rights for minorities in Turkey, and also concerningly, 
the secular opposition in Turkey has indeed been supportive. In 
fact, they are the architects of most of the legislature that 
exists in Turkey that have violated the rights of the country's 
religious minorities.
    In terms of the United States and our commitment to 
religious freedom, I would reinforce the remarks of my 
copanelist and also encourage the committee to move 
expeditiously for the passage of House Resolution 4347, and 
also to work with the U.S. Commission on International 
Religious Freedom around issues related to the violations of 
religious minorities in Turkey. Thank you.
    [The prepared statement of Ms. Prodromou follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


  STATEMENT OF SONER CAGAPTAY, PH.D., BEYER FAMILY FELLOW AND 
 DIRECTOR, TURKISH RESEARCH PROGRAM, THE WASHINGTON INSTITUTE 
                      FOR NEAR EAST POLICY

    Mr. Cagaptay. Thank you, Mr. Chairman, and thank you, 
members of the committee, for giving me the opportunity to 
testify on developments in Turkey and their implications for 
U.S. policy. The following is a summary of my prepared remarks.
    Obviously Turkey is an important country for us. It is a 
NATO ally, but it is also a country that borders vital U.S. 
interests in Ukraine, Russia, Iraq and Syria and therefore is 
an important partner to the United States with regards to U.S. 
policy in each of these countries. With these developments in 
mind, Turkey's long term stability matters to the United 
States.
    In this regard, I think we have seen significant progress 
in Turkey in the last decade. The country has been transformed 
dramatically in the economic sense, rising as a stable and 
wealthy nation. The Turks had experienced a decade of 
prosperity when all of their neighbors went through economic 
and political downturn and some even experienced war. And as a 
result of this transformation, Turkey now is in even a better 
position to be a prime partner for the United Stated given its 
robust economy.
    As I point out in my monograph, ``The Rise of Turkey''--if 
I can make a shameless plug--Turkey has become a majority 
middle class society in the last decade and this has huge 
ramifications. This is a country now that is on the cusp of 
becoming history's first large Muslim majority, a universally 
literate society. The country is connected to a global society 
in ways that cannot be reversed, and these are refreshing 
developments.
    There are also comforting improvements in terms of 
religious freedoms in Turkey, especially for non-Muslim 
communities. As my colleague, Dr. Prodromou, pointed out, the 
government has started restoring property belonging to church 
and synagogue foundations to its rightful owners, so far 
totaling about $1 billion of property. Obviously progress has 
been made and there is still progress that can be made and I 
think we should encourage that process.
    These are key accomplishments for which Turkey's 
Government, AKP government and its Prime Minister Erdogan 
deserve credit. But I also have to add that there is a darker 
side to Erdogan's legacy and that is when it comes to the issue 
of freedoms. Ironically, while Turkey has become more 
prosperous under the AKP, simultaneously it has also become 
less free.
    As measured by international indices, the country's record 
on liberties improved significantly when the AKP came to power 
in 2002 in conjunction with the country's work to qualify for 
EU accession, but then somehow it stagnated and then took a 
nose dive somewhere around the end of the last decade. 
According to Freedom House, Turkey was, for example, ranked 58 
out of 100 in terms of press freedoms, 100 being the least 
free, zero being the most free. That was in 2001 before the AKP 
came to power. The country's record improved in 2005, it went 
up to 48. But then it declined, hitting 62 in 2013. So in terms 
of freedom of expression, Turkey is worse off than it was 
before the AKP.
    Despite being through a democratic process, I think this is 
a party that governs in authoritarian fashion. It is intolerant 
of dissent and opposition as we have seen most prominently 
during the 2013 Gezi Park rallies as well as the bans on 
YouTube and Twitter.
    A second alarming concern obviously is Turkey's pivot to 
the Middle East. That is a concern for the United States in the 
sense that this pivot has met challenges. Before the AKP, the 
Turks thought of themselves as a European country placed next 
to the Middle East. They were not from there, they just lived 
there.
    This perception was challenged by the AKP elite who decided 
that the path to great power and influence for Turkey was 
through the Middle East rather than Europe, and that pivot 
turned out to be a miscalculation a decade later. With the 
exception of the Kurds, Turkey has no allies in the Middle 
East. Not only that, it borders enemies from the Assad regime 
to ISIS, Islamic State.
    And among the many problems I think that Turkey's pivot to 
the Middle East has caused is ISIS to the grave threat it wants 
to establish a Taliban-like state along Turkey's longest land 
border, 800 miles of border with Iraq and Syria. Nobody wants 
Taliban as a neighbor. Nobody wants Taliban presence in the 
Middle East, which suggests that Ankara, Washington and NATO 
will work together against this threat and this will cement a 
strong U.S.-Turkey relationship, and in my view for years to 
come because what is in Turkey's interest is in the interest of 
the United States.
    There are other reasons, I think, to be optimistic about 
Turkey's future. One is the rise of the middle class, which has 
grown as result of the AKP's economic policies and which is 
challenging its style of governance, and also the opposition, 
Republican People's Party, which is slowly but surely turning 
into a liberal movement. Recently the State Department awarded 
party deputy Safak Pavey with International Woman of Courage 
Award, recognizing the party's commitment to gender equality 
and democracy.
    Turkey's trajectory, Mr. Chairman and members of the 
committee, points toward democracy, and the Turkish people need 
the European Union to drive further reform at home. And I think 
the ISIS threat has caused many Turks to clamor for the day 
when their country stayed out of the Middle East and looked to 
Europe.
    So we stand at an opportune moment for a pivot. Washington 
should capitalize on this, relying on Turkey in combating ISIS 
as well as promoting the country's repositioning toward Europe. 
The Middle East may not have panned out the way the Turks 
hoped, but Turkey can still be a major power. It can be a major 
European power. Turkey is of vital interest to Europe and 
therefore to the United States. Its location, its proclivity to 
capitalism and democracy make it an important ally. Washington 
and Ankara share interests and Turkey's path will have great 
strategic importance to the United States in situations ranging 
from Ukraine to Iraq and Syria for years to come. Thank you 
very much.
    [The prepared statement of Mr. Cagaptay follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much. Dr. Kanat?

    STATEMENT OF KILIC KANAT, PH.D., NON-RESIDENT SCHOLAR, 
 FOUNDATION FOR POLITICAL, ECONOMIC, AND SOCIAL RESEARCH (SETA)

    Mr. Kanat. Thank you, Mr. Chairman. I am deeply honored to 
discuss Turkey with you, and I greatly appreciate the 
invitation to do so. And you have my statement. This is a 
summary of my statement.
    Democratization in Turkey has been a long and challenging 
process. And despite some bumps and concerns, Turkey's track 
record with democratization and societal transformation 
demonstrates that there will not be a reversal from democracy 
that will drag Turkey back to authoritarianism.
    There are a couple of reasons that Dr. Cagaptay also 
mentioned. One of them is that democracy has been made possible 
in the last 10 years in part due to the rise of the middle 
class whose demands center around a more inclusive and 
representative governance. This new and growing social class 
has opposed any top-down approach in politics and has 
challenged the political and social engineering of previous 
decades. The class is now almost 50 percent of the population 
and economic indicators demonstrate that it will continue to 
grow in the coming years. It will be unlikely for this group to 
cede any democratic gains in the coming years, thus preventing 
any political party or actor from bringing Turkey back to the 
illiberalism of previous decades.
    Second and related to this, this middle class, especially 
its youth, is more integrated with the world today. There is a 
growing number of active social media users that connect and 
interact with other users worldwide. The political and social 
demands of these citizens are increasing as they become more 
exposed to other cultures and they have increasingly used 
social media to express those demands.
    Third, despite some criticism, the Turkish Government 
itself also recognizes the structural problems in Turkish 
democracy, which have been partly the residuals of previous 
periods and need to be resolved. In his vision statement for 
the Presidential election, for example, Prime Minister Erdogan 
made democratization the first of his three pillars in his 
candidacy platform.
    The prime minister's recent statement of condolence to the 
Armenian victims of the events of 1915 and apology to the 
Alawites for the Dersim events can also be considered as steps 
toward this direction. Furthermore, the current government has 
also realized that it is politically expedient to favor 
democracy. Every political reform that the government has 
promoted has increased the strength of the AK Party and 
contributed to its electoral victories; it doesn't seem likely 
for the AK Party to change this course in the coming future.
    Lastly, the European Union integration process will 
continue to play an important role in Turkey's democratization. 
Despite the declining enthusiasm of the Turkish public, mostly 
because of the discouraging statements of some European leaders 
about Turkey's potential membership, the EU process is still 
considered the most significant foreign policy dimension of 
Turkish politics. In order to avoid any disruption in its 
political and economic relations, the Turkish Government and 
society will not allow its democratic standards to fall short 
of the Copenhagen Criteria.
    Although Turkey seems to be on the right track for 
democratization, it still has some significant problems. Most 
of these challenges are structural ones which may require more 
time, energy and cooperation from other parties. One of the 
most significant challenge lies in the formation of democratic 
institutions that will protect the democratic achievements of 
previous decades. Particularly in Turkey, an independent, 
impartial and credible judiciary is needed to consolidate the 
process of democratization and strengthen the rule of law in 
the country.
    The judiciary has always been a major political actor in 
Turkey, and as such the public trust in the judiciary has been 
lower than in other democratic states. Although the referendum 
and legal reforms brought some improvement, there are still 
major problems. The majority of Turkey citizens' opinion that 
recent events were an attempt to launch a coup via the 
judiciary demonstrates the depth of Turkish peoples' mistrust 
in that branch of government. If Turkey wishes to consolidate 
and improve its democracy, the judiciary must also heed its 
responsibility to be an impartial and independent body.
    Moreover, the government in the last 10 years has 
implemented many reform packages; however, these half-fixes of 
rights are no longer sufficient to satisfy the wishes of 
Turkish people. Consequently, a democratic and civilian 
Constitution is necessary in order to guarantee freedoms and 
liberties in the country. Drafting the Constitution must be an 
inclusive and pluralistic process to be considered a valid 
social contract. It must equally address the concern of all 
citizens in Turkish society in regards to freedom of religion, 
media and expression.
    Finally, Turkey must develop a more powerful opposition 
that has a democratic, inclusive and representative vision in 
order to harness the support of the new middle class so that it 
can push for further democratization in the country. If not, 
Turkey will continue to face the problem of a weak and not very 
credible opposition as it did in the 2011 and 2014 elections, 
where the main opposition parties failed to act as a viable 
alternative to the AK Party. On the one hand, this absence of 
an opposition leaves the AK Party as the only party in the 
political arena capable of producing policy. On the other hand, 
the failure of opposition parties fosters mistrust for the 
political parties in general in Turkey, which fuels increasing 
street politics.
    In summary, Turkey's path to democratization has been a 
challenging and convoluted one. However, the country has 
undergone an irreversible transformation and the next step its 
leaders must take should be to the consolidate the country's 
democratic gains by building institution, drafting a civilian 
Constitution and responding to the democratic demands of a 
rapidly changing society. Thank you very much.
    [The prepared statement of Mr. Kanat follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much, and next we have Mr. 
Tasci.

  STATEMENT OF MR. HAKAN TASCI, EXECUTIVE DIRECTOR, TUSKON-US

    Mr. Tasci. Thank you, Mr. Chairman and members of the 
committee, for giving me the opportunity to testify on the 
future of Turkish democracy. The following is summary of my 
prepared remarks. And I am a little bit sick, so I am sorry 
about that.
    The AKP government transformed Turkey into an upper middle 
income country with a strong middle class and more than 20 
powerhouse Anatolian cities in last decade. In order to 
overcome the middle income trap, however, structural reforms 
are essential and, specifically, tax code, institutional 
structure and the judicial system. Turkey's growth model is 
dependent on capital flows, foreign energy resources and 
Central Bank policies, especially before the municipal 
elections, they successfully controlled the exchange rate 
3:40:00 in Turkey. And the independence of the Central Bank, 
which is increasingly undermined by Mr. Erdogan during the 
process, has been a key factor for combating inflation and 
financial stability.
    Other investor worries are the problem with rule of law, 
diminishing economy and political checks and balances. Having 
tamed the military and crushed political opposition, Mr. 
Erdogan consolidated his power by suppressing the media and 
dissent to a large extent. This disproportional use of force 
and harsh rhetoric against Gezi Park protestors sparked an 
outcry inside Turkey and abroad. Mr. Erdogan has presented 
events as an international conspiracy to undermine his 
government and portrayed dissenters as traitors.
    A similar pattern was evident during the corruption scandal 
of last December which implicated sons of three Turkish cabinet 
ministers, high level bureaucrats and government friendly 
businesses. Among the suspects are Reza Sarraf, an Iranian 
businessman dealing with gold trade in sanction era, and Yasin 
Al Qadi, a businessman who used to be on U.N. terror list for 
10 years. Instead of complying with prosecutors, Mr. Erdogan 
presented corruption investigations as a coup effort led by 
domestic and international actors such as U.S. Ambassador, 
influential preacher Fethullah Gulen, and the ``interest 
lobby.''
    In a clear attempt to obstruct justice, thousands of police 
officers and hundreds of prosecutors have been purged or 
reassigned. Turkish Parliament dominated by ruling party passed 
legislation which seriously threaten independence of judiciary 
and provides almost immunity to intelligence. This is a huge 
setback for rule of law and accountability in Turkey and quite 
antidemocratic laws.
    Mr. Erdogan launched a fierce campaign against the Gulen 
movement, a major independent social force for democracy and 
modernization in Turkey, blaming it for masterminding the 
corruption investigations with the help of sympathizers in the 
bureaucracy. Pro-government media follows with orchestrated 
headlines and lies. The PM is not shy of publicly declaring 
this a witch hunt. Thousands of bureaucrats were discredited, 
demoted or reassigned. Without any evidence of wrongdoing, 
guilt by association has become the norm.
    Witch hunt has taken a toll not only in bureaucracy but 
also in civil society, business community and media. He calls 
Gulen movement sympathizers in public mass as viruses, 
assassins, leeches, traitors, spies and vampires. In addition 
he is cancelling public tenders, changing zoning of existing 
structures----
    Mr. Connolly. Mr. Chairman, was he talking about Fox News? 
No, no.
    Mr. Tasci. Cancelling public tenders, changing zoning of 
existing structures, revoking mining permits, deploying tax 
inspectors, rejecting venue rentals for programs are among the 
common practices. Members of my organization, TUSKON, a leading 
business NGO, face government retribution if they don't resign 
from membership. Bank Asya was nearly bankrupt due to 
orchestrated defunding efforts by the government.
    Without any indictment or charge, Mr. Erdogan presses the 
U.S. Government to extradite Mr. Gulen who lives in 
Pennsylvania as a legal resident. White House had to issue a 
rare correction after he suggested that Mr. Obama agreed to 
comply with him. Media affiliated with the movement that 
maintains its independence is a constant target. Private 
tutoring centers will be closed starting June 2015 because of 
25 percent stake of movement. Erdogan government heavily 
lobbies against the movement's peaceful and successful 
educational institutions in more than 150 nations, and some 
closed already due to pressure.
    Undermining peaceful and constructive Sufi initiatives 
which offer an antidote to extremism and violence is a 
disservice not only to Turkey but to the world. Witch hunt and 
smear tactics is not limited to Gulen circles. Businessmen, 
associations and media who come from different ideological 
backgrounds are under intense pressure to either comply or face 
consequences. According to press reports, 100,000 small and 
midsized businesses were profiled based on their donations, 
flight arrangements and other confidential data.
    AKP leadership tries to justify recent antidemocratic 
practices pointing out electoral victories. However, Professor 
Omer Taspinar describes this overturn as transformation from 
tyranny of Kemalist minority to ``tyranny of majority.'' Prime 
Minister Erdogan thinks his election victory with 43 percent in 
March 30 municipal elections have cleared him and his party 
associates from the corruption allegations as well. He does not 
hide his ambition to force constitutional boundaries to make 
executive and legislative branches, if not judiciary, 
subservient to him.
    And one last thing. The Erdogan government deserves credit 
with its continued commitment to resolution of the Kurdish 
question. And finally, Turkey is a strategically important 
country for the West as a relatively successful democractic and 
free market experiment in a volatile region. Turkey's Sufi 
interpretations of Islam represent a powerful alternative to 
violent extremism. Therefore it is imperative for friends and 
allies of Turkey in the West to support and engage Turkey on 
its democratic and economic journey.
    Turkey's continued EU accession path is essential for 
reforms. TTIP, Transatlantic Trade and Investment Partnership, 
might open a new and an important gateway for Turkey's future 
integration with the EU and the U.S. One must not lose hope 
with the future of Turkey democracy and economic potential. 
Despite occasional downturns, Turkey has historically always 
found a way to recover.
    [The prepared statement of Mr. Tasci follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Connolly, with the permission of the committee and 
unless I hear any objections, Mr. Connolly will be treated as a 
member of the committee.
    Mr. Connolly. I thank my friend.
    Mr. Rohrabacher. All right. Well, let me just ask, well, 
first of all, let me just note I accept that there is criticism 
and just criticism of Turkey or any other country. What we need 
to do is make sure that that criticism is within the 
perspective of what is happening in other countries and what is 
the norm and whether Turkey is operating as a norm or whether 
or not Turkey is headed in the wrong direction which is not the 
norm.
    And let me just go through a few things here. You were 
mentioning about, Doctor, what was going on in Cyprus. Although 
this is not a hearing on Cyprus, this is a hearing on democracy 
in Turkey, are there mosques in the Christian areas that have 
not been, and property in the Christian areas of Cyprus that 
are also being--your criticism of how the Christian churches 
and properties are being treated in the Muslim side of Cyprus, 
what about in the other areas? Is there a balance there 
somewhere, or the Turkey side is way more repressive against 
Christians than the Christian side is against Muslims?
    Ms. Prodromou. The only reason that I introduced what was 
happening in Turkish occupied Cyprus was because I think it is 
a very useful metric for the overall quality of democracy in 
Turkey. After all, the Turkish Armed Forces have absolute 
control over the northern part of Cyprus and unfortunately 
there is a pattern in the occupied section of Cyprus that I 
think speaks to the broader pattern in terms of what has 
happened with religious freedom issues on the Turkish mainland.
    Mr. Rohrabacher. To be specific, the specific question I 
asked is your testimony criticized the activities going on in 
the Turkish areas with Christian properties. Can that same 
criticism be leveled in Christian areas to Islamic properties?
    Ms. Prodromou. Absolutely not.
    Mr. Rohrabacher. Okay, good. That is what I am looking for. 
Because we had a bill about return of Christian properties. And 
by the way I am in favor of return of properties to people who 
they belong to whether they are Christians or Muslims. But 
there was a hearing that we had and I have also heard that 
there are Muslim properties in mosques in Greece, for example, 
that needed to be addressed as well.
    And what we need to hear and what we need to find out, is 
it a just criticism of Turkey alone? We as a people who believe 
in freedom and treating people decently would hope no countries 
participate in this, but also we have to make sure we are not 
singling out one country for criticism that is of activities 
that are going on in all countries.
    Let me ask about the censorship there. And at this time is 
the Internet censored in Turkey?
    Mr. Schenkkan. It is a complicated question. There are 
upwards of, I believe the number is upwards of 30,000 Internet 
sites that are blocked----
    Mr. Rohrabacher. Blocked?
    Mr. Schenkkan [continuing]. In Turkey. Blocked.
    Mr. Rohrabacher. So blocked by whom?
    Mr. Schenkkan. Blocked by the government. Blocked by the 
telecommunications.
    Mr. Rohrabacher. So we have 30,000 sites that are blocked 
by the government.
    Mr. Schenkkan. That is correct. And that includes sites 
that a democracy might also recognize as----
    Mr. Rohrabacher. Like pornography, gambling.
    Mr. Schenkkan. There could be legitimate reasons for 
blocking sites. The question is whether----
    Mr. Rohrabacher. How many of them are? How many would you 
say are----
    Mr. Schenkkan. We don't know because the government doesn't 
release a list of sites. This number is gathered by an NGO. The 
government stopped releasing a list, I think it was 3 years 
ago.
    Mr. Rohrabacher. Well, we have a testimony from this 
witness that says that the government is relying on social 
media to promote progress in their country. And we have another 
testimony here saying that we are blocking all of these sites 
but we don't know whether or not how many of them are political 
or they may be very legitimate blockage.
    Mr. Schenkkan. Well, what we can say is that the process 
for blocking sites is not transparent. It is not able to be 
contested by the owners or the users of the site, and has been 
the subject of European Court of Human Rights ruling on this 
issue, a 2012 ruling, Yildirim v. Turkey, which held that the 
law that I mentioned that was amended, in my remarks, 5651, 
that this law was not in line with the European Convention on 
Human Rights which is legally binding upon Turkey. And the 
court said that Turkey needed to revise that law. They did not 
do so. They made these amendments this year that actually made 
the problems worse.
    Mr. Rohrabacher. Okay, well, let me get to the--you have 
mentioned again the judicial activity involved with some of 
these questions. One of our witnesses talked about the purge, 
the purge of judiciary. All right. But we heard from another 
witness that traditionally Turkish judiciary is political and 
politicized. So it is a purge to kick out certain people of a 
political persuasion when they themselves took the spot of 
someone because they were more in tune with that political 
persuasion? So is that a justified criticism then? I will give 
you a chance to answer that.
    Mr. Tasci. I can say a few words on it. I mean as I said in 
the beginning of my remarks, the judicial system was always a 
problem in Turkey. It didn't start on December 17th or during 
the Gezi protest or even before. But the problem is the people 
who are not a problem on December 16th become the problem 
within the judicial system on December 17th, which happens. I 
mean what happened in that period, just 2 days after the 
December 17 investigations is filed, they said this is very big 
case and appointed two new prosecutors to the system, now 
three. And two of those three signed the prisonment (sic) of 
the suspects. Then those two were again purged, 3 or 4 days 
after the election.
    So this is not about the politics of the judiciary or 
impartial behavior of the judiciary, as it becomes an are you 
with me or are you against me? Are you going to follow what I 
say?
    Mr. Rohrabacher. That leads to the question that I have got 
to lead up to here, and that is we have--look, we are Americans 
and demand a certain standard. And let me just say that I am 
not in favor of our Government getting involved in the Internet 
at all. I am for Internet freedom. But right now we are trying 
to assess democracy in Turkey, all right. And if indeed we have 
seen this type of politicization of the judiciary in the past 
as standard, to criticize Turkey right now on that is not 
necessarily a just criticism of this administration.
    Now with that said, I am going to let my colleagues have 
their chance, but I would like to get a one answer from all of 
you. And that is, with the challenges or the problems that we 
are talking about right now this is, Turkey seems to be 
stepping back from the positive direction in democracy, et 
cetera that we had all been so happy about 10 years ago and 5 
years ago, is this a problem with structure? The judiciary has 
always been politicized. Or is it a problem with you have got a 
leader with an ego who is now exercising powers that because of 
his own personal evaluation it is more of a personal thing? 
Because this happens to leaders around the world as well, I 
might add, that if they stay in too long--that is why George 
Washington stepped forward and said he is getting out after 8 
years by the way and George Washington saved our country a lot 
of anguish because of that. Maybe after 8 years people begin to 
lose the perspective when they have had so much power. So is it 
structural or is it personal? Just give me, what is it?
    Mr. Schenkkan. Both.
    Mr. Rohrabacher. Both, okay.
    Doctor?
    Ms. Prodromou. It is both, but I think it is more deeply 
structural than personal.
    Mr. Rohrabacher. Okay.
    Mr. Cagaptay. I think it is structural but that is not the 
reason it should stay around. The argument that you always had 
problems with judiciary and media freedoms in Turkey, therefore 
problems today should be recognized is anachronistic. Turkey is 
a European country. It should have European style liberties. 
And justifying violations of freedom of expression based on 
past violations is not an excuse.
    Mr. Rohrabacher. Let me just note, I never justify any 
violation of human rights.
    Mr. Cagaptay. I didn't suggest----
    Mr. Rohrabacher. I know, but I accept that as the standard 
that you are mentioning there.
    Yes, sir?
    Mr. Kanat. I think it is mainly structural.
    Mr. Rohrabacher. Structural.
    Mr. Tasci. I think both.
    Mr. Rohrabacher. Both. Oh my. Well, thank you very much. I 
will now turn to our ranking member.
    Mr. Keating. Thank you, Mr. Chairman. Mention that Turkey's 
in a very dangerous neighborhood, and we are all saddened by 
the news of the Turkish hostages in Mosul and urge that they 
are released quickly. But this really poses a question in my 
mind because there have been other reports that the Turkish 
Government aids extremist factions in Syria, maybe not 
militarily but with access to borders and medical help and 
other types of help.
    So how do you reconcile this that in one sense the 
government has been doing this, reports are indicating, while 
falling victim to the groups themselves. Are the reports 
accurate? What would ISIS particularly target in Turkey? Why 
would they do that if they were getting this kind of help? And 
how are the Turkish people hearing about this given some of the 
blackouts in communication that occur?
    So I just wanted to get into that and I would like to ask 
Dr. Cagaptay first and then Dr. Kanat.
    Mr. Cagaptay. Thank you, Congressman. I think for a long 
time Turkish-Syria policy was based on the following premise, 
Assad will fall and good guys will take over, therefore anyone 
who wants to go in and fight Assad can do so because when the 
good guys take over they will just sweep them away. That 
premise has proven to be wrong, and just as other premises of 
Turkey's pivot to the Middle East have produced problematic 
results.
    Assad is not falling and good guys are not taking over, so 
the policy of letting anyone and everyone go in is creating 
threats long and short term for Turkey. And I think Turkey is 
now coming to grips with this conclusion that not only good 
guys are not taking over, but bad guys are laying roots in 
Syria. And ISIS attack on Turkey was unfortunate and rude wake-
up call for many Turks who did not realize that this group had 
built an infrastructure in Syria, just as it was a rude wake-up 
call for us here in Washington.
    I think at this stage, Turkey having come to this 
realization, this actually puts Turkey and the United States on 
an alignment. Now Turkey does see a radicalization threat 
coming from Syria which has targeted Turkey. ISIS when it took 
over Mosul, also attacked the Turkish consulate in that city, 
took 49 Turkish citizens including children and babies hostage, 
and to this day Turkey has not been able to secure their 
release. This is the worst hostage crisis in Turkey's modern 
history, and the threat comes from a radical group next door, 
ISIS that has grown in Syria.
    To me this suggests an even closer U.S.-Turkish cooperation 
on Syria on the issue of radicalization because now ISIS is as 
big a threat to Turkey as it is to any other country in the 
region.
    Mr. Keating. And is that sifted down to the people?
    Mr. Cagaptay. Yes, I have seen recent polls. In fact, 
today, just before we started this hearing, Turkish support for 
the government's Syrian and Iraq policy has plummeted, for the 
first time under 50 percent. This used to be a 70 percent, 76 
percent support in 2011. Now it is 41 percent support for 
government Syria policy.
    Mr. Keating. I take it in your answer that you thought 
there was some type of aid that was there at least before. Has 
that ceased?
    Mr. Cagaptay. I would not call it aid, Congressman. I think 
it was a policy of basically anticipating that whoever went in 
would be cleaned out eventually. I think Turkey is now 
basically coming to grips with the realization that this is a 
long term problem and it will work closer with U.S. and 
European allies.
    Mr. Keating. Dr. Kanat, do you want to comment on that?
    Mr. Kanat. I agree with some of Dr. Cagaptay's statements 
about this. Turkey and Syria have more than a 500-mile border 
without any geographical terrain. So it is very difficult to 
control the border. And then Turkish-Syrian relations were 
extremely bad in the 1990s. There was a huge land mine that 
basically had a post--a military post and everything. But since 
the improvement of the relations and rapprochement, Turkey 
removed this and Turkey and Syria had good relations and no 
visa requirements; it was basically an open border.
    Now after the Arab Spring and the starting of the Assad 
regime's killing of its own people, there is this major 
problem. There is this border, a huge border--500-mile border--
and it is very difficult to control who is entering and who is 
not in those circumstances. Turkey and United States launch a, 
actually, initiative, antiterrorism initiative, and Turkey and 
both countries contributed to this $500 million last year. And 
about the ISIS there is, starting from the emergence of this 
trend Turkey basically indicated several times that ISIS may be 
a major threat not only for Turkey but for the region as a 
whole.
    Mr. Keating. In the remaining seconds, if I could, I would 
just like to ask Mr. Tasci. Business community, when they are 
hearing these things, when they are hearing about issues about 
separation of powers, rule of law issues and the closure of 
communications like YouTube, can you just comment what the 
conversation is among the business communities? And you can 
touch on the Soma mining disaster as well. What is the chatter 
in the business communities? Just briefly, so it doesn't go too 
much longer over time.
    Mr. Tasci. What is going on in Turkey is a big concern for 
many business people as well. For example, I will give a couple 
of things which are in my prepared statement as well. TUSIAD 
chairman, for example, one of our competitors, let us say, 
business association chairman said, we need rule of law. I mean 
he made a comment about rule of law and the importance of rule 
of law for international investors. And the response was he is 
a traitor, I mean he got the reaction in a public mass that 
traitors. And after 3 or 4 months he had very unusual things 
happening and he resigned because of his own business 
interests. And now they have a new chairman which had his first 
meeting with the prime minister and the other cabinet members 
as well.
    And I am sure he is here as well, American-Turkish Council 
chairman and CEO, James Holmes, is one of the leading 
businessperson or one of the leading individual who represents 
the business community in United States is the chair of ATC. 
His institution is blacklisted, and his conference, which they 
held last June was the 33rd of that conference and the Turkish 
Government blocked it and they didn't come to the event and he 
signed his resignation because of that one.
    So I mean this kind of treatment is not unique to one 
institution or another but rather for everyone. You have to 
comply. You have to be silent or you have to face the 
consequences.
    Mr. Keating. Thank you. I think you have given us a flavor. 
We did ask other business groups if they were interested in 
this hearing. And I want to thank you for being here. Because I 
think much of the progress that Turkey will have and we will 
have together with Turkey will be grounded on economic 
activities, and certainly some of the concerns you raised are 
concerns that may affect that progress. Thank you, I yield 
back.
    Mr. Rohrabacher. And as the Chair noted in the opening 
statement, quite often economic progress can be short circuited 
and cut off if the political system does not match the progress 
going on in the economic system.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing. But I find Turkey almost like an enigma. A few years 
ago they were poised to be one of the leading countries in the 
country that were an example. Now I see all these pivoting 
back, more repressive, less democracy concerns. I was just 
wondering if you see this because of the region they are in and 
there are concerns all around them, or is there an excuse that 
they are using to pivot away from what I think was a democratic 
way?
    Mr. Schenkkan. Thank you, Congressman. I think that Turkey 
has obviously suffered through a very difficult history of 
coups, of illiberalism of a single party period at the founding 
of the country. The democratic tradition in Turkey has been 
weak even though it was a multiparty system after World War II.
    So you have this long history leading up to the rise of the 
AK Party that the party came within that context. And I don't 
think the party has escaped that context, and perhaps we 
shouldn't be as surprised as we feel we are. But what we are 
seeing is the AK Party after this period that Dr. Cagaptay 
mentioned, in the early 2000s when the EU accession process was 
more active, when the AK Party was more actively courting a 
liberal democratic trend for several years, I would say at 
least going back to 2007, we have seen the party led by the 
prime minister reinstituting many of the habits, reenacting 
many of the habits of the illiberal state.
    And because the mechanisms of the illiberal state are still 
there in the judiciary, in the police forces, to a certain 
degree in the culture that is finding fertile ground and it is 
something that can be enacted and it is something that is 
developing.
    Mr. Sires. Would you like to respond?
    Mr. Cagaptay. Thank you, Congressman. I think Turkey is a 
democracy. It remains a democracy. It has free and fair 
elections.
    Mr. Sires. But it is pivoting away.
    Mr. Cagaptay. Governments, I agree with you. Governments 
can be voted out. I think the trend we are seeing is not that 
it is undemocratic, it has a democratically elected government 
which does rule in an authoritarian fashion. And I think that 
suggests a consolidation of two branches of government in one 
hand, executive and legislative, and if Prime Minister Erdogan 
is elected as President he will also appoint judges to the high 
courts also holding power over judiciary. But Turkey does 
remain a democracy. It has robust democratic institutions and 
the governments are voted in and out democratically.
    Mr. Sires. They also in my eyes are very sensitive to 
anything in terms of the Armenian genocide or the recent, that 
we did in the committee--return of the properties, the churches 
and everything else. I had a senior moment, I guess. I should 
say that, right?
    But I mean, how can I say this? I don't know. I just see it 
as turning away from all the good things that they have done. I 
mean I even see, I know we are not supposed to bring up the 
Cyprus issue, but they act like thugs. Even when you go and 
vote here you feel like you are voting with the Turkish order 
we had on any of those issues. I mean if you are going to be a 
country of 75 million people and you are going to be a world 
player, you have got a great history, I mean you have to be 
more understanding that you can't be a thug.
    And I just feel that is the way they behave in many ways, 
and I don't know whether that is due to the growing pains or it 
is just in the culture. Maybe it is in their history. But if 
you want to be a player, you want to be part of the European 
Union, you have other ways of dealing with many of the issues 
that they seem to go war.
    Mr. Cagaptay. As an historian, if I could respond to your 
dilemma, I follow the reaction to the passage of the resolution 
in Turkish media, in Turkish, and I think the reaction was not 
so much anger at the passing of the resolution but the fact 
that Turkey has made some progress in restoring, for example, 
property belonging to synagogue and church foundations after 
passing a law in 2011. It hasn't restored all property. It has 
restored property totaling about $1 billion in value.
    Mr. Sires. I get all that.
    Mr. Cagaptay. Yes, yes.
    Mr. Sires. I understand all that. But if you are going to 
say something negative about a country----
    Mr. Cagaptay. Right.
    Mr. Sires [continuing]. Look at what can say about the 
United States. I mean we are like the evil empire. Everybody 
criticizes no matter what we do. But if you want to be a role 
player in this country, want to be in this world, you have 75 
million people with all this history, I just find that for me 
perplexing. And maybe I just don't know enough about the 
history and I am now not being accurate. Thank you, Chairman.
    Mr. Rohrabacher. Thank you. And Mr. Connolly?
    Mr. Connolly. I thank the chairman and I thank my friend 
the ranking member as well for allowing me to participate. 
Well, first of all, I would say to my dear friend Mr. Sires, I 
am not sure much is achieved by referring to the Turkish 
Government, a NATO ally that has been there by our side for the 
entirety of the Cold War and since, as a thug. I just don't 
think that is helpful. I also think it is not true to history. 
And I----
    Mr. Sires. I am not setting policies.
    Mr. Connolly. I know. I know. And I would just say with 
respect to Cyprus, actually there is a lot of good news coming 
out of Cyprus recently, finally, and we want to encourage that. 
And we want to be careful about that because the two sides are 
talking and there is actually movement and some sense of hope. 
And I would hope Congress would encourage that.
    I will also say while I certainly appreciate this hearing, 
I don't know how often we have a hearing on a fellow European 
country and member of NATO to investigate how they are doing in 
their internal political process. And I might even have some 
candidates for us to consider if we are going to extend the 
list. Turkey is a work in progress as a democracy, so are we. 
And I would never justify the crackdown on the press, freedom 
of religion, freedom of expression, but imperfect is not the 
same as being hopeless and retrograde and autocratic and 
authoritarian and oppressive.
    And one of the concerns I have, quite frankly, in our full 
committee is sometimes that gets lost in our rhetoric and even 
in our actions. And we want to encourage Turkish democracy. We 
want to encourage a secular Muslim society in Turkey. We want 
to encourage Turkish membership in the EU. We need to get over 
biases and historical problems. Turkey has to come to 
acknowledgment with some of its past, as my friend from New 
Jersey has indicated, but so do others. And we need to deal 
with the Turkey of here and now, not of the Turkey of 100 years 
ago or 200 years ago or 500 years ago for that matter. Some of 
us are still hung up on Constantinople. But we have to deal 
with what we are dealing with here and now.
    And so none of that is to excuse behavior that looks like, 
to your point Mr. Sires, a regression. And maybe it is 
structural and maybe it is personal and maybe it is both. We 
have got a government that has been in power for quite some 
time and frankly doesn't have much political opposition that is 
viable. That is always a dangerous situation for any democracy 
because we get complacent, we get arrogant and the like.
    So let me ask starting with you, Mr. Tasci, from the 
business community's point of view. Do you believe that the 
Erdogan government is regressing? That in fact we are risking 
democratization, democratic institutions with some sense of 
arrogance of purpose with this current government?
    Mr. Tasci. So good question, Mr. Congressman. Hard to 
answer, but I will try to be as precise as possible. I am 
talking about one person and the problems with one person does 
not necessarily mean the problem is the problem of everyone in 
that sector or everyone who supported that party or other kind 
of people. And you may be having problems on one side like the 
one that I mentioned about the Gulen movement and other kind of 
things, but you may have very progressive and very good 
policymakers when people are on your side.
    So I mean that is the kind of different approach compared 
to like Chinese type or like Korean type or different types of 
countries. I mean definitely Turkey is a democracy. Turkey may 
be a liberal democracy or maybe it is like majoritarian 
democracy. You may call it any way you can. But we have free 
elections. Is it fair? Questionable. Does the government use 
its power to enhance and improve their own networks and 
success? I think there may be some legitimacy on that. But in 
general it is going to be very hard to say it is not----
    Mr. Connolly. If I may, Mr. Chairman, could I ask Mr. 
Schenkkan if he wants to respond to that as well?
    Mr. Schenkkan. Yes, thank you. Yes, there is regression 
underway. This is being documented by Freedom House. It is 
being documented by other human rights organizations, by 
journalists on the ground, by international journalists. This 
is a major subject of discussion for everyone who is following 
Turkey closely. We are seeing the regression in all areas of 
fundamental freedoms. We are seeing it in freedom of 
expression. We are seeing it in freedom of association. We are 
seeing it in freedom of assembly.
    And I want to stress that just to anticipate the counter 
argument that I am sure the congressmen have heard elsewhere 
that this is nothing compared to what it was like in the 1990s 
or in the 1980s under military rule or during the dirty wars. 
That is true. That doesn't mean that that is the standard for 
Turkey. Turkey is, as we have said repeatedly, an EU member 
candidate country. It is also a signatory to the European 
Convention on Human Rights which is legally binding. There are 
a whole host of ways in which Turkey's aspirations and the 
standard to which Turkey holds itself are much higher.
    Mr. Connolly. Thank you.
    Mr. Cagaptay. Congressman, if I may? I agree with you, 
Congressman, that what we see in Turkey is a real progress and 
that should be recognized primarily because the country has 
come a long way especially on the economic sphere and that is 
significant. Countries cannot be transformed politically unless 
they are transformed economically first. So Turkey has done the 
first part of this tough task. It has become a majority middle 
class society and that is a legacy of Prime Minister Erdogan.
    If, as my colleague here, Dr. Kanat, says, Prime Minister 
Erdogan does commit himself to drafting a liberal democratic 
Constitution for the country, he will also go down in history 
as the person who has transformed the country politically. He 
has not done that so far. And I think given his political 
record, it is possible to expect that that political 
transformation is probably not going to come from within the 
governing party but from the liberal opposition that has been 
building in Turkey in the last decade primarily because of the 
AKP's successful economic policies, which have produced a 
majority middle class society which now demands respect for 
individual liberties, freedoms of expression, media, 
association and assembly. This was the tone of the Gezi Park 
movement and I think it is going to stay around in Turkish 
politics.
    So we could conclude that Prime Minister Erdogan has 
transformed Turkey economically, but it is the liberals--and I 
am using the word ``liberal'' here not in the American sense 
but in the European sense. It is the liberals who are committed 
to democracy who will transform Turkey politically.
    Mr. Kanat. Thank you. I think part of this discussion is 
about what authoritarianism is, as Prime Minister Erdogan is 
winning elections and becoming the predominant leader in 
Turkey. And we have to understand that not all predominant 
leaders are prone to authoritarianism, not always. And when you 
see the reform packages, especially regarding the Kurdish 
question, the historic process that we are having right now and 
the condolences that offered for the Armenians, this couldn't 
be happening with a predominant leader.
    And we have to understand that democratization is a moving 
target, and I totally understand that for some in Turkey the 
current level of democratization may not be enough and 
comparing constantly with the 1990s or the previous decades may 
not be a good way to understand this. So I think it is a moving 
target and it is a learning process at the same time.
    But Prime Minister Erdogan and the AK Party government, 
from the reform processes that they are in right now and from 
their determination to write a civilian and pluralistic 
Constitution, gave the signal that especially the period after 
the elections would be a new democratic process.
    Mr. Connolly. You have been most generous. Thank you, Mr. 
Chairman.
    Mr. Rohrabacher. Actually it is the Chairman's policy that 
people have a chance to answer the questions and then if there 
is a discussion that is getting to an important point that we 
don't put the 5-minute rule into effect in a way to cut off 
some people from getting down to some truths that we are 
looking for. With that said, Mr. Lowenthal, I know, will take 
about 20 minutes now.
    Mr. Lowenthal. Thank you for offering me \1/2\ hour to 
speak.
    Mr. Keating. We want you to take 5 minutes.
    Mr. Lowenthal. It is okay. May be an improvement.
    I don't know what question, I want to kind of frame it in 
my concerns. About 6 years ago when I was a member of the 
California State Legislature we took a visit, some of the 
leadership in the legislature, to Turkey and it was a time of 
great excitement. It was a time of, it was, I think, the second 
term of the AKP party. We met with leadership in the Justice 
and Development Party not with Mr. Erdogan but with others just 
below. And it was a time of where there was a great change 
there.
    At that point as I understood, Turkey had had a history of 
every 20 years or so a military coup, and the party was trying 
to reduce the role of the military at the time. He was in a 
major battle with the generals to reduce their power. He was 
also, I remember at that time when I was there, there were 
great newspaper stories about the fight between the justice 
system and his wanting to replace many of the justices because 
of some of the tremendous corruption that had taken place 
historically. There was greater freedom. There was discussion 
on the streets. We met with women's groups in terms of the role 
of women. And so it was a time of great hope and aspiration. We 
spent time with families. We didn't stay in hotels, we spent 
with families as we went across the country visiting schools.
    And synonymous with this and with this tremendous support 
was a greater amount of religious toleration. And we kept 
meeting with people who were very much pro-AKP party and also 
some of the people who were in the Gulen movement who were very 
synonymous and very similar and really talked about how it was 
not a threat. Unfortunately while this is happening, I have 
been hearing more and more about the threat to religious 
freedoms that are taking place. That a movement that was seen 
as not anti, not really anti or pro-government, was now, was 
really talking about the role of education, the role of people, 
the role was now beginning more and more to be perceived as 
threatening.
    And so my question is, is this so? Is this really what is 
going on? I am sure you have talked about it. And I realize 
that over time governments change. It has now been almost, 
what, the AKP was, which I believe before 2002 was not even a 
major party. It was really, and so it has been only now 14 
years as a party, but it has been a party that has been in 
power for 14 years.
    So I am really concerned about what the future holds and 
whether this apparent, is what I heard before, slide away from 
democracy, slightly, maybe not totally, but some of this 
movement and this lack of religious tolerance is really so, and 
what role can we play in both supporting Turkey and also 
supporting a movement toward democracy?
    Yes?
    Ms. Prodromou. I think that your observations are correct 
that there has been backsliding and also there are some danger 
signals when it comes to religious tolerance. I think it is 
important for us to understand that when we speak about 
secularism in Turkey and Turkey as a secular democracy, Turkey 
secularism has in no way meant freedom of religion from the 
state. The Turkish model of secularism has been promised on the 
absolute state control over religion in civil society. And I 
think that is a very different understanding of secularism and 
therefore leads to very different kinds of consequences with 
religious----
    Mr. Lowenthal. Many of these schools that we visited were 
set up by people who followed the leadership of Gulen. Has that 
been seen as a threat that now they are educating children in a 
different way? I just wonder if the threat is that people, 
although, and my impression was Gulen, and this movement when 
we talked to it was not anti the government at all, but yet it 
was pro-education, pro-parental involvement in the schools. 
Tremendous change in how the schools--is this being seen as a 
threat to Turkish or centralized control over both education or 
religion?
    Ms. Prodromou. The initial collaboration and cooperation 
between the Gulenist movement and civil society and the AKP 
party has been well documented. And I think that----
    Mr. Lowenthal. And it was that you could feel it when you 
were in the country.
    Ms. Prodromou. And the expansion and tolerance for Islam in 
the public sphere for Turkey's Muslim population has been 
significant. And I think that is a function, initially, of the 
cooperation between the AKP and the Gulenist movement. That 
kind of expansion, however, and the public presence of the 
Sunni majority population has not been matched by an equal 
expansion and tolerance for, for example, the 20 percent 
Alawite population in Turkey, and it certainly hasn't been 
matched by increased tolerance for non-Muslim minorities in 
Turkey.
    And I think another piece of this discussion that needs to 
be addressed is the rising anti-Semitism that we have witnessed 
in Turkey over the last decade, in particular the kinds of 
public statements by even this warning by Prime Minister 
Erdogan regarding the interest rate lobby, the Jewish lobby, et 
cetera that has led to, I think, a generalized societal 
intolerance for non-Muslim minorities in Turkey including the 
Jewish community.
    Circling back though to the Galenist-AKP relationship, 
again I think that the initial globalization that allowed for 
greater public presence for Islam in Turkey was driven by the 
Galenist movement, but with the cleavage now between the 
current government and that movement I think we are beginning 
to see a backlash.
    Mr. Schenkkan. Congressman?
    Mr. Rohrabacher. Very quickly.
    Mr. Schenkkan. Yes, a short comment on that. I think the 
greatest achievement of the AKP in democratization was 
loosening the grip on identity on who could be a Turk, who 
could legitimately be a Turkish citizen. As my colleague said 
though that was done primarily for the purposes of liberating 
people to be conservative Muslims in public. It did have an 
effect though across society, and Turkish identity now is much 
more flexible and much more open and that is a very positive 
development.
    The biggest question now in this regard is will, under 
President Erdogan will a new unitary identity start to be 
established and start to be enforced? And that is probably the 
most frightening consequence that could come out of the 
consolidation of power.
    Mr. Rohrabacher. Let us quickly----
    Mr. Cagaptay. Thank you. On the issue of the rights of, and 
religious freedoms with members in communities, as someone who 
has often gone on the record to criticize the government's 
record on liberties I have to disagree with my copanelist, Dr. 
Prodromou, with that. The government has actually done well on 
the religious rights of the non-Muslim communities and improved 
significantly.
    I have visited this Greek Orthodox Sumela Monastery, 
Armenian Aghtamar Church in the last years. They were both 
restored with government funds, public money. Public money has 
been spent now to pay for utility bills of churches and 
synagogues, a practice that the government has been doing for a 
very long time for mosques. That is equality if that could be 
construed as such.
    On the broader picture, Congressman, on your question of 
Turkey's direction on religion and state, I think there are, 
broadly speaking, two practices of organizing the relation 
between religion and politics. One is the European system which 
is freedom from religion in education and politics, and the 
other one is the American system which is freedom of religion 
in education and politics. Turks for a long time practiced the 
first under Kemalism. Because they were Europeans this was 
laicite. This is how the Europeans do it.
    They have switched to the second model, the American model, 
from religion to freedom of religion, education and politics. I 
think Turkey needs both to move forward because it is a country 
that has Muslims and non-Muslims. It has shades of Islam. It 
has shades of practice or the lack thereof. And to accommodate 
this diversity of Islam as well as non-Islam and faith and non-
faith and practice and non-faith practice, Turkey needs to be a 
country that provides for not just freedom for religion, 
education and politics, which is what it does now, but also 
freedom from religion, education and politics. These two, I 
think, will be the way to move Turkey forward. Thank you.
    Mr. Kanat. I want to add a couple things to the religious 
freedom side. The Sumela Monastery and Aghtamar Church was 
renovated and restored, and in the Sumela Monastery, actually, 
after 100 years, the first religious services took place in 
2012. And same in 2013, in the Aghtamar Church, after 88 years, 
the first religious services are taking place. So there is 
improvement in the rights of the non-Muslim community in 
Turkey.
    And one more thing I want to add about press freedom. You 
have to understand that when we are discussing press freedom in 
Turkey and censorship, there is a plurality of newspapers in 
Turkey. Actually, there are around 40 newspapers in Turkey with 
a total circulation of 5 million. And 65 percent--60 percent--
of these newspapers are anti-government and you can see all 
kinds of anti-government news in these newspapers. The problem 
is that none of the newspapers have pluralism within them so 
they become almost homogenous entities, and fighting 
journalists, I think, would take place in anti-government 
newspapers as well. For example, if you write a pro-government 
column in one of the newspapers--anti-government newspapers--
you would probably lose your job immediately. And because of 
that, as I was mentioning, there is a structural--deep 
structural--problem to understand press freedom in Turkey and 
to provide any kind of solution for this problem. Thank you.
    Mr. Rohrabacher. Thank you. And we have one last comment, 
but let us just note there are journalists here who lose their 
job because they are not towing the line of whoever management 
is in charge as well. Do you want to make one comment on that 
and then we will go there?
    Mr. Schenkkan. Thank you. If I may, to respond on the press 
freedom issue as it is a special focus. I think there is 
somewhat of a simplistic understanding sometimes of what it 
means to not have freedom of expression in a repressive 
environment. It is not that one makes a statement and then a 
piano falls on you or trap door opens and you disappear through 
the floor.
    What happens in Turkey, what happens often, what happens 
dozens if not hundreds of times is that people are fired for 
speaking out, for criticizing the government. They are fired 
through direct government intervention. Through direct 
intervention from government officials with newspaper and media 
owners. We know that this happens. This has been confirmed. 
They are also sued. They face criminal and civil defamation 
suits. They are even sent to jail for certain kinds of 
reporting.
    Mr. Rohrabacher. That is a very significant point to make 
in reference to the point that was made. Finally, the last----
    Mr. Tasci. One small thing I would like to add, as you 
asked what happened suddenly with this Gulen movement and AK 
Party thing, I would like to say one thing about it. I think 
you are right that there was a heavy support and religious 
movements or religious ideologies from all sects in Turkey saw 
by AK Party as their own garden. And especially after 2011 
elections when they had that vast majority, 49 percent of 
election victory right after the referendum. They feel like it 
is time to control the religious area as well, but the movement 
was independent as well.
    So the movement stays independent, becomes independent 
which makes the government a little bit troublesome. As force, 
a civil society force, which is very organized, they may lose 
in several fronts of the community, educational institutions, 
dialogue centers, et cetera, but they cannot be controlled. You 
cannot tell them what to do.
    So the monopolization of this religious domain also become 
an important factor for this separation. For example, other 
movements have the similar problems. New movements, for 
example, have their own books and now the government is 
publicizing that book's publication. So I mean they don't have 
the right to publish their own books that they wrote, but the 
government institutions have to publish it and it is going to 
give the books to them. So controlling everything is the main 
sense and is the main reason I can say.
    Mr. Rohrabacher. All right. The Chair will now ask the 
ranking member if he would like to have 2 minutes to summarize 
his views on the hearing today, and then I will make a 2-minute 
summary as well and that will be it.
    Mr. Keating. Thank you, Mr. Chairman. Even our own members 
have asked why are we having hearings, why Turkey, why not 
other countries? We touched upon the fact that over the last 
short period of time Turkey has become much more influential in 
the world. And Turkey, I believe, has the opportunity to become 
even more influential in the world.
    So their policies now that they are in this position and 
have the potential to move further, their policies now go 
beyond their borders more than they did before and they have 
influenced beyond their own borders more than before including 
the United States. Turkey is our strategic partner and we want 
to keep it that way. The U.S. has an interest in Turkey's 
democracy becoming stronger. The U.S. has an interest in 
Turkey's economy becoming stronger, and we should do whatever 
we can to help keep that progress moving forward and not 
backwards.
    And that is something that I think most of us and I think 
all of us can agree upon as we look at this hearing. There is a 
lot at stake. There is a lot of progress. There is a lot that 
can be done to help the region and the world. And we are very 
attentive to Turkey and we are very attentive to things that 
aren't moving in a direction where our own interests, Turkey's 
interests, in fact, European interests and world interests can 
all be benefited by that. I yield back.
    Mr. Rohrabacher. I would like to thank our witnesses. I 
hope that you were able to make the points that you needed to 
make and that we got into some areas of discussion that I think 
are important. That is the purpose of these congressional 
hearings, is not necessarily to come to the ultimate conclusion 
but instead to make sure that people are discussing issues of 
significance. And you have given us a lot of food for thought 
today so I appreciate all of you for testifying.
    Let me just note that just from the chairman's perspective, 
some cultures can't accept criticism very well. One of the 
great attributes of Americans is that we generally can take 
criticism. In fact, when people are saying you are doing this 
wrong or you are doing that wrong, we usually think of it as a 
good suggestion. Let us go take a look at it and maybe we can 
correct it.
    And over the years we have certainly had our share of 
maladies and sins that we committed against our own people, and 
with the open system, and we didn't always have a free press 
here. And we had a freer press than in other places of the 
world, but we did have people who are in various parts of our 
country faced physical retaliation if they said something bad 
about the Ku Klux Klan for a long time.
    But we basically, our country now that when people 
criticize us we are able to accept that. I don't think that the 
Turkish culture is the same as the American culture in this 
regard. And that is why when people want to talk about what 
happened in the Armenian genocide, the Turkish people then 
think it is a personal attack on them even though this is 
something that happened about 100 years ago.
    And certainly if someone started going through the sins 
that we committed against the American Indians or against Black 
Americans 75 years ago, we wouldn't probably have the same, how 
do you say, sensitivity to it. We would just say, well, we have 
tried our best and if there is still some remnants around we 
are going to make it better even more so.
    So we have to understand that about Turkey. That is part of 
their culture. Today our intent was not just to offer 
criticisms but to understand what is going on and to perhaps 
communicate with our friends, and all the Turkish people are 
our friends. That we have got some concerns that over the last 
10 years we were very joyful that things seemed to be going in 
the right direction and now there is some indications that it 
might not be going in the right direction.
    And that is not to say that is worse off than it was under 
the Ataturk regimes that took place for so long, but that there 
are reasons there are trim lines. I will just say this that 
when, under Ataturk and that regime, young women in the 
universities were not permitted to wear head scarves. And some 
of my friends, when they permitted women to wear head scarves 
at the university, came to me and said how horrible it is to 
see this radical Islamic regime there, they are allowing women 
to wear head scarves. No, it is when women are mandated to wear 
head scarves that the line is crossed and that we should be 
concerned.
    So there are some areas of concern that we should have 
about freedom of press and making sure that people who 
demonstrate are not incarcerated, et cetera. But we always have 
to put this in perspective and try of what is going on in other 
countries but also in how it relates to our basic principles as 
a people. And again, the last point is we should not forget 
that the Turks have stood with us for so long and through so 
many trials during the Cold War, we need to keep them as our 
friends and we need to offer our criticisms not as criticisms 
but as suggestions of how they can improve things and get 
things on the right track. With that said this hearing is 
adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<H-dash><pound><script-l><star><careof><Rx><bullet> 
                     <Hoarfrost><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
